,7

?
■

20-1300

ORIGINAL

No.

filed

In the Supreme Court of the United State§EC 15 2020

Emilio Torres Luque,
Gabriela Medina,
Emilio Express Inc.,
Petitioners,
vs.
COMMISIONER OF INTERNAL REVENUE SERVICE,
Respondent.
On Petition for a Writ of Certiorari to
the United States Court of Appeals
for the Ninth Circuit

PETITION FOR A WRIT OF CERTIORARI
Brief for Petitioners
Emilio Torres Luque,
Gabriela Medina,
Emilio Express Inc.,
In Pro Se
4193 Powderhorn drive
San Diego, CA 92154
(619) 571-1977

1

QUESTIONS PRESENTED
This is a case of first impression. There are no similar
cases that either party or the Court's own research
could find. The Supremacy Clause of Article VI of
the U.S. Constitution states:
“This constitution and the laws of the United States
which shall be made in Pursuance therefore, and all
Treaties made, or which shall be made, under the
Authority of the United States, shall be the supreme
law of the land.”
Approximately 15 million people live in the 2000-mile
border region between the United States and Mexico.
Many of the citizens of this region, comprised of 4 U.S.
States, go back and forth between the two nations on
a daily basis. Many live in the U.S. and work in Mexico,
vice-versa, or both. It is not unusual for a resident of the
border region to earn his income in one country but
reside in the other or have residences in both countries
due to family circumstances. The application of the
US-Mexico tax treaty which went into effect in
1994, and applies to many of these people, needs
clarification.
The questions presented are:
1. Is the only method available by the
United States-Mexico Tax Convention to
not subject taxpayers to double taxation
the creation of a system of credits so that
each country shall relieve residents of the
other from paying taxes on the same

11

income through a system of tax credits
(“RECIPROCITY”), or can dual
residents of both countries apply the
Treaty Articles to their facts and
circumstances and choose one of the two
countries as their primary home to
compute their tax accordingly?
2. Did the Ninth Circuit Court of Appeals
erred when it voided the basis for the Tax
Court for granting Summary Judgment
to Commissioner and not reversing the
Summary
Judgment
to
the
Commissioner?
3. Did the Commissioner abused its
discretion and acted in bad faith by not
following the pronouncements of Revenue
Procedure 2006-54 and Article 26 of the
Convention which provide for resolution
of disputes
by
arbitration
and
subsequently the Tax Court overruled the
Mexican Tax Authorities over which it
has not authority or jurisdiction?

Ill

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED........................
TABLE OF CONTENTS............................
TABLE OF AUTHORITIES.......................
PETITION FOR WRIT OF CERTIORARI.
OPINIONS BELOW...................................
JURISDICTION.........................................
CONSTITUTIONAL AND
STATUTORY PROVISIONS AT ISSUE
INTRODUCTION AND
STATEMENT OF THE CASE............

1,11

m
IV

1
1
1
2

3-4

REASONS FOR
GRANTING THE PETITION
4
I.
A. A System of Credits is not equivalent to an
Exemption system
4,5
B. The US and Mexico are contiguous nations . . 6,7
II.
Basis for granting Summary Judgment no longer
exists
7,8
III.
Article 26 of the Treaty and the Guidance of
Revenue Procedure 2006-54 were violated . .8,9
CONCLUSION

10

IV

APPENDIX
Final Order of Court of Appeals......... A-l
Memorandum Opinion of the Court of
Appeals.................................................. A-2
Order of Court of Appeals Emilio Express
Inc is a Proprietorship
A-3

Tax Court Final Order Treaty Benefits is
B-l
by a system of credits
Tax Court Orders granting Summary
Judgment to Commissioner, Denying
Summary Judgment to Petitioners... B-2
Tax Court Decision on Deficiencies... B-3

V

TABLE OF AUTHORITIES
Page
Cases
Whitney v Robinson 124 US 190 (1888), at
2
194
UnionBanCal Corp. v. Comm’r, 305 F.3d
976, 986 (9th Cir. 2002)
6
Higgins v. Smith, 308 U.S. 473, 477
7
(1940)...................................... ..
United States Constitution
U.S. Const, art. VI........................
Federal Treaties
United States Mexico Tax Treaty
6
Article I.
5
Article 4 .
8
Article 26

l

Federal Statutes
2
28 U.S.C. § 1254(1)
3
26 USC § 6114
Miscellaneous
Treasury Reg. Section 301.7701(b)-7 (1). 2
7
I.R.C. § 7701(a)(30).............
8,9
Revenue Procedure 2006-54

1

PETITION FOR WRIT OF
CERTIORARI
Petitioners respectfully pray that a writ of certiorari issue to
review the judgment of the United States Court of
Appeals for the Ninth District.
OPINIONS BELOW
The unpublished memorandum panel opinion of the
Court of Appeals is included in Pet. App. A (2). The
denial of the petitions for rehearing en banc, the
denial of petition for Panel reconsideration and Order
that Emilio Express is a proprietorship and not a
corporation are included in Pet. App. A (1,3).
The Tax Court opinion and Orders of deficiency
stating that tax treaty benefits are by a system of
reciprocity and not by exclusion based on residency
and granting Summary Judgment to Commissioner
are included in Pet. App. B.
JURISDICTION
On February 1, 2019, the Tax court granted the
Commissioner’s motion for Summary Judgment with
deficiencies and denied Petitioners motion for
Summary Judgment. On March 6 the Tax Court
issued an order that the only way to claim treaty
benefits is by a system of reciprocal tax credits.
Petitioners filed a timely appeal to the Ninth Circuit
Court of Appeals, which issued a Panel decision on
June 12, 2020 affirming, signed by Circuit Judges
Leavy, Paez and Bennett. On September 18, 2020, the

2
Ninth Circuit issued a final order denying Panel
Reconsideration and en banc rehearing.
This Court has jurisdiction under 28 U.S.C. § 1254(1).

CONSTITUTIONAL AND
STATUTORY PROVISIONS AT ISSUE
The US-Mexico Tax Convention is the law of the land
because since it went into effect in 1994, it has not
been superseded or abrogated: “treaties are placed on
the same footing and made of like an obligation with
an act of legislation. If the two are inconsistent, the one
last-in date will control the other”. Whitney v
Robinson 124 US 190 (1888), at 194.
Treasury
Reg.
Section
301.7701(b)-7
(1),
Coordination with income tax treaties, which applies
to Petitioners as dual-residents, states that
Petitioners be “treated as a nonresident alien of the
United States for purposes of computing that
individual's United States income tax liability under
the provisions of the Internal Revenue Code...” ,.and
(2) Computation of tax liability, “If an alien individual
is a dual resident taxpayer, then the rules on residency
provided in the convention shall apply for purposes of
determining the individual’s residence for all purposes
of that treaty.”

3
INTRODUCTION AND
STATEMENT OF THE CASE
Petitioners were audited and were assessed
deficiencies after being denied labor costs paid to the
drivers (all Mexican nationals) because they were
paid in Mexico and being told they could not deduct
other expenses because their receipts were in
Spanish. Petitioners’ tax preparer then created a
Corporation to report US deliveries hoping that they
could separate income earned and expenses incurred
for each country and thus facilitate their tax
reporting. However, when they transport cargo
between one country to another, part of the income is
earned and part of the expenses are incurred in
Mexico and the other in the US for the same delivery.
It is simply not possible to separate and allocate those
amounts. The IRS agent disallowed labor expenses
paid to the drivers, who are all Mexican nationals,
because Petitioners could not provide documentation
to support valid US payroll laws. Furthermore, the
agents also disallowed some expenses with receipts in
Spanish. Faced with having to pay again for amounts
that were not in accordance to their facts and
circumstances, prepared amended returns based on
the US-Mexico Tax treaty, combining all the income
of earned in both countries, and deducting all their
expenses incurred in both nations and filing as
residents of Mexico and non-residents of the US, as is
allowed under 26 USC § 6114, disclosing their treaty
based positions on Form 8833 as required.

4
Petitioners are entitled to claim treaty benefits, their
returns were correctly prepared. The finding of the
Tax Court that the only way to claim treaty benefits
is by a system of credits is not applicable to their facts
and circumstances, as the expenses incurred are not
tax payments but nevertheless have tax implications.
Petitioners are the class of taxpayer for which the
Treaty was intended to apply. In the transportation
business, some expenses are incurred in one nation for
income to be received in another, some income is
received in US dollars other in Pesos but for the same
load and vice-versa. Their situation is unique as
residents of two contiguous nations who chose to make
a living by being involved in the chain of commerce
promoted by the Treaty. They are law abiding and are
entitled to fair treatment. Mexico has accepted their
returns as filed for the years under audit. Petitioners
have filed their taxes for the years 2006-2019 with the
same facts and circumstances as the years under
audit (2003-2005), which both Taxing authorities
have accepted. The Commissioner should also accept
the returns for the years under audit as filed.
REASONS FOR
GRANTING THE PETITION
I
A. A System of Credits is not equivalent
to an Exemption system
The interpretation of the Tax Court is incoherent
with the terms of the treaty and it misrepresents

5
the facts. Under a system of credits, a taxpayer
who pays taxes to a treaty partner from which
they derive income can get credited for that
amount in his US tax return. However, the Tax
Court equates that to an Exemption system in
which supposedly a taxpayer would exempt their
income from US Taxation, which is not accurate.
The Tax Court misinterpreted the application of
the Articles of the Treaty to allocate all the
income and expenses to the country where the
vital economic interests of the Taxpayer are
located (See Article 4 of the Treaty for Residency
determination) with exempting the income
earned in the other country from taxation. The
Tax Court states that “Under an exemption
system, two residents of the same country with the
same amount of income could he subject to
different effective rates of taxation—a resident
with low-taxed foreign income would he subject to
less total tax than would a resident with purely
domestic income”. (App. B (2) page 10). Under this
interpretation Petitioners could be charged with
tax evasion. Instead what Petitioners have done
in preparing their tax return is to consolidate all
their income and expenses to what they consider
their residency under the criteria of Article 4. The
chose Mexico because according to their facts and
circumstances that is their “center of vital
interests” and also because they are citizens of
Mexico and green-card holders in the US. They

6
compute taxable income (revenue - expenses applicable deductions allowed by Mexican tax
law) and present those tax returns to the Mexican
tax authority. Petitioners taxable income as
presented to Mexico is usually negative or a very
small gain. That amount is then used as the
starting point to prepare their US Non-Resident
tax returns. Those returns are prepared by a
licensed Mexican tax preparer taking advantage
of the tax laws legally available to them as is
allowed under the convention.
Technical explanation Article 1 Paragraph 2:
“if a deduction would he allowed under the Code in
computing the U.S. taxable income of a resident of
Mexico, the deduction also is allowed to that person in
computing taxable income under the Convention.
Paragraph 2 also means that the Convention may not
increase the tax burden on a resident of a Contracting
State beyond the burden determined under domestic
law. Thus, a right to tax given by the Convention
cannot be exercised unless that right also exists under
internal law. ”
B. The US and Mexico Are contiguous Nations
In its decision to affirm the decision of the Tax Court,
the Ninth Circuit cited UnionBanCal Corp. v.
Comm’r, 305 F.3d 976, 986 (9th Cir. 2002) (noting
the similar U.S.-U.K. Tax Convention allows both
sovereigns to tax residents of the other presuming
rules preventing double taxation are followed). (App.

7
A (2) Page 1). However, the US and U.K. are
separated by an Ocean, thousands of miles from each
other, whereas Mexico and the US are contiguous,
thus the authority is not on point, and since there are
no similar cases on point, Petitioners ask this court
for guidance and clarification.
II
Basis for granting Summary Judgment no
longer exists
The Tax Court granted summary judgment to
Commissioner because “Emilio Express is a
domestic corporation, see I.R.C. § 7701(a)(30).
There is no dispute about this”. (App. B (2) page
7).
However, the Ninth Circuit ruled that Emilio
Express Inc. is a sole proprietorship (App. A (3)),
therefore voiding the basis for granting summary
judgment. Furthermore, the Ninth Circuit also
based its decision to Affirm on the same fact, i.e.
that Emilio Express Inc. was a corporation (App.
A (1) page 3), quoting Higgins v. Smith, 308 U.S.
473, 477 (1940)
“A taxpayer is free to adopt such organization for
his affairs as he may choose and having elected to
do some business as a corporation, he must accept
the tax disadvantages
Since the Corporate form no longer applies, thus
all the income and expenses are included in
Petitioners’ personal returns, and no advantages

8
resulted from the corporate form.
The granting of summary judgment should be
reversed, and all the deficiencies assessed as a
result should be vacated.
Ill
Article 26 of the Treaty and the Guidance of
Revenue Procedure 2006-54 were violated
Petitioners were directed by Counsel for the
Department of Treasury to seek Competent
Authority determination by following the
guidelines of Rev. Procedure 2006-54, which
Petitioners followed. (Appellants Excerpts of
Record pages 29-48). However, after 16 months of
deliberations with the Mexican Competent
authority, the US unilaterally terminated the
discussions because the outcome of the
determination regarding residency would favor
Petitioners. Rather than terminating the
deliberations, the US Competent Authority
should have followed the guidelines of Article 26
item 5 and submitted the case to Arbitration, to
which the Petitioners were willing to abide by.
Since the Competent Authorities had both
deliberated over the amended tax returns
presented by Petitioners as residents of Mexico
and non-residents of the US, and had agreed that
Petitioners owed no income tax to Mexico, when
the US Competent Authority notified Petitioners

9
of that determination on November 6, 2012 (ER
page
42),
Petitioners
accepted
that
determination, therefore pursuant to RP 2006-54
under Section 12.05 Notification, the matter is
final and not subject to further administrative or
judicial review. (ER pages 42 and 43), and
Appellant’s Opening Brief Addendum 3 page 39.
Based on the above guidance, Petitioners
submitted their Motion for Summary Judgment
to the Tax Court, because the case was “not
subject to further administrative or judicial
review”, supra, however the Tax Court ignored
that determination and incorrectly denied
Petitioners’ Motion and in the process, indirectly
overruled the determination of the Mexican
Competent Authority and Mexican Tax
Authority, over which the Tax Court has no
jurisdiction or authority.

r

CONCLUSION
The petition for a writ of certiorari should be granted and
the Court should reverse the Summary Judgment and
vacate the Order of deficiencies assessed against
Petitioners.

Respectfully submitted on December 14, 2020

Emilio Torres Pmque

I —

C_^€rabriela Medina

